No.
Janice Smyth v. Conservation Commission of Falmouth and Town of Falmouth
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ
of Certiorari contains 8,974 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 14, 2019.

J. DAVID BREEMER
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
E-mail: jbreemer@pacificlegal.org
Counsel for Petitioner

